Memorandum Report




OIG-CA-14-014

TERRORIST FINANCING/MONEY LAUNDERING: Review of
Travel to Cuba by Shawn Carter and Beyoncé Knowles-Carter
August 20, 2014




Office of
Inspector General
Department of the Treasury
This Page Intentionally Left Blank
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220

                                           August 20, 2014
    OFFICE OF
INSPECTOR GENERAL




          OIG-CA-14-014

          MEMORANDUM FOR ADAM J. SZUBIN
                         DIRECTOR
                         OFFICE OF FOREIGN ASSETS CONTROL

          FROM:                Sharon Torosian /s/
                               Director, Boston Office

            SUBJECT:           Review of Travel to Cuba by Shawn Carter and Beyoncé
                               Knowles-Carter


          This memorandum represents the results of our review of a trip to Cuba by the
          couple Shawn Carter (whose stage name is Jay-Z) and Beyoncé Knowles-Carter
          (Beyoncé) to determine whether the trip violated U.S. sanctions. Based on our
          review of available documentation and applicable regulations and guidance, we
          found no indication that U.S. sanctions were violated, and we concluded that
          the Office of Foreign Assets Control’s (OFAC) decision not to pursue a formal
          investigation was reasonable.

          We shared a draft of the memorandum with OFAC management. In a written
          response, included as attachment 1, OFAC stated that it agreed with our
          conclusion that OFAC was reasonable in its determination that there was no
          apparent violation of U.S. sanctions with respect to the trip. OFAC had no
          additional comments. A distribution list for this memorandum is provided as
          attachment 2.

          Background
          In April 2013, various media reported that Jay-Z and Beyoncé celebrated their
          5th wedding anniversary in Cuba. The reports prompted members of Congress to
          ask the Department of the Treasury (Treasury) whether the trip violated the U.S.
          travel ban to Cuba for tourist activities. According to Treasury’s response, the
          trip did not violate U.S. sanctions and was licensed under OFAC’s people-to-
          people educational exchange program. Our objective was to determine
          (1) OFAC’s guidelines for travel to Cuba under the people-to-people educational
Page 2

exchange program, (2) whether the couple’s trip was conducted in accordance
with those guidelines, and (3) whether OFAC’s decision not to pursue an
enforcement case for violations of U.S. sanctions was reasonable.

To accomplish our review, we interviewed officials from OFAC’s Cuba travel
program. We also reviewed OFAC’s guidelines for the people-to-people
educational exchange program, documentation from OFAC, media reports
concerning the trip, and other publically available information. Our field work
was conducted from April to June 2013. We conducted our review in
accordance with the Council of Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspection and Evaluation.

People-to-People Educational Exchange Program

Federal regulations governing the U.S. trade embargo against Cuba were
amended in 2011 permitting OFAC to issue specific licenses to organizations
that sponsor and organize educational exchange programs that promote
people-to-people contact in Cuba. 1 These licenses permit organizations to
arrange group travel to Cuba as long as the tours sufficiently involve activities
that are educational in nature and promote meaningful interaction between the
travelers and the Cuban people. Individuals who wish to travel under the
people-to-people program do not need a license from OFAC but they are
required to travel with an OFAC-licensed operator. The operator must have the
participants engaged in a full-time schedule of educational exchange activities. 2
Trips related to activities that are primarily tourist-oriented, including
self-directed educational activities that are intended only for personal
enrichment, are not authorized by OFAC.

To obtain an OFAC license, an organization must describe in its application how
the proposed educational and people-to-people exchanges would enhance
contact with the Cuban people, support civil society in Cuba, or help promote
the Cuban people’s independence from Cuban authorities. Applicants are also
required to provide OFAC with a sample itinerary of full-time activities that will
take place in Cuba. OFAC licenses typically expire after 1 year. An applicant
wishing to renew a license must provide OFAC with a detailed report of all
activities undertaken with the existing license and how the activities resulted in
meaningful interaction between the travelers and individuals in Cuba.


1
    31 C.F.R. § 515.565(b)(2)
2
    Licensees that fail to meet the requirements of their licenses may have their licenses revoked
    or be issued a civil penalty of up to $65,000 per violation.
Page 3

Jay-Z and Beyoncé’s Cuba Travel Activities
In early April 2013, Jay-Z and Beyoncé visited Cuba under an OFAC license
issued to a non-profit organization that has a mission to promote education in
the fields of art, architecture, and the decorative arts. The media reported the
couple was celebrating their 5th wedding anniversary. The reports included some
of the activities they engaged in during the 4-day trip. Our review found these
activities were consistent with the activities for which OFAC authorized the
people-to-people license.

For example, one article reported the trip included a visit to a children's theater
group and several clubs, where the couple heard live music and occasionally
took to the dance floor. According to the article, they also toured Cuba's top art
school, where they met with young artists, and ate at some of Havana’s
privately run restaurants, known as “paladares.” 3 One of the city's leading
architects led the couple on an architectural tour of the Old City of Havana,
during which the article stated the couple was mobbed by Cuban spectators.

We reviewed the OFAC case file for the non-profit organization. The case file
included a renewal application filed in May 2012. We determined that a
proposed itinerary included with the renewal application was consistent with
OFAC’s Comprehensive Guidelines for License Applications to Engage in Travel-
Related Transactions Involving Cuba. These guidelines state that each traveler
must have a full-time schedule of educational exchange activities that will result
in meaningful interaction between the travelers and individuals in Cuba. The
activities listed in the renewal application included a welcome dinner at a
paladar, a guided walking tour of various neighborhoods in the Old City of
Havana with a Cuban architect guide, a presentation of art students’ work and
an art studio visit guided by a Cuban professor, a visit to a local children’s
theater group, and a rehearsal at a practice studio of a Cuban dance company.
According to the non-profit organization’s renewal application, all of these
activities serve the U.S. foreign policy goal of helping the Cuban people by
facilitating exchanges with them and supporting the development of
independent activity and civil society. OFAC did not object to these activities
and renewed the non-profit organization’s license in October 2012; that license
was in effect during the period of Jay-Z and Beyoncé’s travel to Cuba.




3
    A paladar is a restaurant that has been allowed by the Cuban government to operate in a
    private home. By eating in private residences, instead of state-run restaurants, diners support
    the economic independence of these establishments.
Page 4

Jay-Z and Beyoncé’s activities described in media articles were similar to those
included in the proposed itinerary supporting the approved license. Additionally,
the activities described in the media articles were similar to activities the
organization included in its renewal application that it planned to offer in future
trips or had undertaken in a previous trip.

OFAC’s Review
OFAC decided not to open a formal investigation into whether the non-profit
organization that sponsored Jay-Z and Beyoncé’s trip to Cuba violated U.S.
sanctions. According to an OFAC official, after speaking with the non-profit
organization and reviewing requested documentation from the trip, OFAC
determined there was no apparent violation of U.S. sanctions. As a result,
OFAC concluded no further investigation was necessary. We noted, however,
that OFAC did not prepare a written record of the basis for its conclusion,
which is contrary to internal control standards and Treasury documentation
requirements. 4

Conclusion
OFAC is authorized to license travel to Cuba for people-to-people educational
exchanges that enhance contact with the Cuban people, support civil society in
Cuba, or help promote the Cuban people’s independence from Cuban
authorities. Based on our review of the applicable laws and regulations, OFAC
guidelines, the OFAC case file for the non-profit organization including related
correspondence between OFAC and the organization, and inquiry of OFAC
officials, we believe OFAC’s determination that there was no apparent violation
of U.S. sanctions with respect to Jay-Z and Beyoncé’s trip to Cuba was
reasonable. While we are not making a formal recommendation in this



4
    The Government Accountability Office (GAO) has established standards for internal controls in
    the federal government, which include that all transactions and other significant events be
    clearly documented in federal records, and the documentation be readily available for
    examination. Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1,
    (Nov. 1, 1999). Treasury’s documentation requirements are established in Treasury Directive
    Publication 80-05, which states that all program officials shall create and maintain adequate
    and proper documentation of the program for which they are responsible. This means a record
    of the conduct of government business that is complete and accurate to the extent required to
    document the organization, functions, policies, decisions, procedures, and essential
    transactions of their office and to protect the legal and financial interest of the government
    and of persons directly affected by the activities of their office. Treasury Directive Publication
    80-05, “Records and Information Management Manual” (June 2002).
Page 5

memorandum, we believe that OFAC should document in its files with a
summary of the basis for its determinations with respect to this matter.

If you have any questions about this memorandum, please contact me at (617)
223-8638. Office of Inspector General staff who made key contributions to this
report are Jenny Hu, Auditor-In Charge, and Jason Madden, Auditor-In-Charge.

Attachments
       Attachment 1
Management Response
                                              Attachment 2
                                          Report Distribution


Department of the Treasury

   Deputy Secretary
   Under Secretary for Terrorism and Financial Intelligence
   Office of Strategic Planning and Performance
   Management
   Office of the Deputy Chief Financial Officer, Risk and
      Control Group

Office of Foreign Assets Control

   Director

Office of Management and Budget

   OIG Budget Examiner
